U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

September 24, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Damien Guedes, et al. v. Bureau of Alcohol, Tobacco, Firearms
and Explosives, et al., S.Ct No. 19-296

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 29,
2019, and placed on the docket on September 4, 2019. The government's response is due on
October 4, 2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including November 4, 2019, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0296
GUEDES, DAMIEN, ET AL.
ATF, ET AL.

ALAN ALEXANDER BECK
LAW OFFICE OF ALAN BECK
2692 HARCOURT DRIVE
SAN DIEGO, CA 92123
615-905-9105
ALAN.ALEXANDER.BECK@GMAIL.COM
FRANK D. GARRISON
NATIONAL RIGHT TO WORK LEGAL
DEFENSE FOUNDATION, iNC.
8001 BRADDOCK ROAD
SUITE 600
SPRINGFIELD, VA 22160
703-321-8510
FDG@NRTW.ORG
JOSEPH GREENILEE
FIREARMS POLICY COALITION
1215 K STREET
17TH FLOOR
SACRAMENTO, CA 95814
970-485-3303
JOSEPHGREENLEE@GMAIL.COM
ERIK S. JAFFE
SCHAERR JAFFE LLP
1717 K STREET NW
WASHINGTON, DC 20006
202-787-1060
EJAFFE@SCHAERR-JAFFE.COM

JOSHUA PRINCE
CIVIL RIGHTS DEFENSE FIRM, P.C.
646 LENAPE ROAD
BECHTELSVILLE, PA 19505
610-845-3803
JOSHUA@PRNCELAW.COM
DANIEL L. SCHMUTTER
LAW OFFICES HARTMAN & WINNICKI, P.C.
74 PASSAIC STREET
RIDGEWOOD, NJ 07450
201-967-8040
DSCHMUTTER@HARTMANWINNICKI.COM
ILYA SHAPIRO
CATO INSTITUTE
1000 MASSACHUSETTS AVE., NW
WASHINGTON, DC 20001
202-218-4600
ISHAPIRO@CATO.ORG
STEPHEN D. STAMBOULIEH
STAMBOULIEH LAW PLLC
P0 BOX 4008
MADISON, MS 39130
601-852-3440
STEPHEN@SDSLAW.US

